              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Use and Management
Resolution  of Significant
                        of Finding
                           Mobile
Investigation Recommendations
Communications    Services




DOE/IG-0669
      -                                     November 2004
                                            December 2002
